                      Closeout of M89110007   -   qo - 3105-

This case was referred to OIG on November 20, 1989 by a program



w
officer (                    , in ~ E N G ) ,who had received an
anonymous allegation. The subject is
                  Engineering Depart
              He is accused of plagi
copie su stantial parts of an earlier published paper without
acknowledgment in a paper he published himself.     (Other vague
allegations of plagiarism by the subject were raised, but none
that appeared to involve NSF.)
From our examination we learned that the subject had apologized
to the journal editor for the incident and that his institution
had conducted an inquiry into the matter.      OIG asked for and
examined the documentation from this inquiry. The institution's
inquiry committee found that the subject had committed some
degree of plagiarism, that the ethical violation was not trivial,
and that some degree of recognizable sanctions was appropriate.
However, it did not recommend a formal investigation, as its own
findings seemed to warrant. University officials then imposed a
penalty on the subject that appeared to this office to be
inadequate and to minimize the offense.
0IG decided not to devote more of its limited resources to
pursuing this case, for several reasons. The original plagiarism
is now an old issue, since it took place in 1982. The plagiarism
does not directly involve NSF funding, since the subject had not
yet received any NSF awards at that time. The only link with NSF
was that the subject regularly listed the plagiarized paper in
the resume that he submitted with his later proposals to NSF.
However, OIG did send a letter to the university officials who
were in charge of the inquiry, with a copy to the subject,
explaining deficiencies we found, both in the procedures used in
the inquiry and in the subsequent use of its conclusions. We
have now decided to close this case and take no further action.




January 17, 1991
